<html>
<title> - RAYMOND L. ORBACH NOMINATION</title>
<body><pre>[Senate Hearing 107-445]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-445
 
                      RAYMOND L. ORBACH NOMINATION
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 on the

 NOMINATION OF RAYMOND L. ORBACH, NOMINEE TO BE DIRECTOR OF THE OFFICE 
                    OF SCIENCE, DEPARTMENT OF ENERGY

                               __________

                           FEBRUARY 26, 2002











                       Printed for the use of the

               Committee on Energy and Natural Resources


                    U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001














               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Feinstein, Hon. Dianne, U.S. Senator from California.............     2
Orbach, Dr. Raymond L., Nominee To Be Director of Office of 
  Science, Department of Energy..................................     3

                                APPENDIX

Responses to additional questions................................     7










                      RAYMOND L. ORBACH NOMINATION

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:08 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. This morning's hearing is on President Bush's 
nomination of Dr. Raymond Orbach to be the Director of the 
Office of Science at the Department of Energy. The Office of 
Science is one of the leading supporters of basic scientific 
research and is the primary supporter of physical science in 
the Nation, and the Director of that office is responsible for 
overseeing and managing this very important work.
    Dr. Orbach's long and distinguished career as a physicist 
and as Chancellor of the University of California at Riverside 
will make him well qualified for this important post and we are 
very glad to see him nominated for this important post.
    I understand that perhaps Senator Murkowski will put a 
statement in the record in support of the nomination as well. 
He is not able to be here this morning.
    The rules of the committee which would apply to all 
nominees require that they be sworn in connection with their 
testimony, so Dr. Orbach, could you just stand and raise your 
right hand please.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Dr. Orbach. I do.
    The Chairman. Please be seated. Before you begin your 
statement, let me ask you the three questions that we address 
to all nominees before the committee. Number one, will you be 
available to appear before this committee and other 
congressional committees to represent departmental positions 
and respond to issues of concern to the Congress?
    Dr. Orbach. I will be pleased to do so.
    The Chairman. The second question, are you aware of any 
personal holdings, investments or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Dr. Orbach. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflict of interest. There are 
no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Thank you very much. The third question is, 
are you involved or do you have any assets held in any blind 
trusts?
    Dr. Orbach. No, sir.
    The Chairman. Okay. At this point I am required to be at a 
meeting in the Capitol and Senator Feinstein is here to 
introduce Dr. Orbach and she is a strong proponent of his 
appointment, and she will conduct the rest of this hearing. So, 
I wish you well in this new position. I strongly support your 
nomination.
    Dr. Orbach. Thank you, Mr. Chairman.
    The Chairman. Senator Feinstein.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein [presiding]. Thank you very much, Mr. 
Chairman. I am very happy to welcome Dr. Orbach, I do happen to 
know him, I do think he is superbly qualified, and it is a 
distinct honor for me to be able to introduce him to the 
committee or to the record this morning.
    He is the Chancellor of the University of California at 
Riverside and he has been nominated, as the chairman said, by 
the President to be Director of the Office of Science at the 
Department of Energy.
    Dr. Orbach has had a brilliant career. He is a most able 
nominee for this position. He is a distinguished professor of 
physics. He assumed the role of the sixth chancellor of the 
University of California at Riverside in April 1992. Under his 
leadership, University of California at Riverside became the 
fastest growing school in the UC system with an annual 
enrollment today of just over 14,000 students. Dr. Orbach has 
been a leader not only at the university level but also in the 
community, working with K through 12 educators and parents to 
help chart the academic course students should follow and must 
follow to be eligible for college upon graduation.
    As was stated, he is a distinguished professor of physics 
and he sets high standards for academic excellence. He was a 
member of the faculty at Harvard University and at UCLA before 
coming to UCR. From 1982 to 1992, he was also provost of the 
College of Letters and Science at UCLA.
    He has done extensive research into theoretical and 
experimental physics. He has been supported by the National 
Science Foundation and the Office of Naval Research. His work 
has resulted in over 240 scientific papers being published.
    He has received numerous honors as a scholar. The 1991-92 
Andrew Lawson Memorial Lecture at UCR, a National Science 
Foundation post-doctoral fellowship, the Alfred P. Sloan 
Foundation fellowship, and the John Simon Guggenheim memorial 
fellowship.
    He is a graduate of the California Institute of Technology, 
known as Cal Tech, with a BS in physics. He attended the school 
on a full scholarship. He was awarded his Ph.D. in physics from 
the University of California at Berkley in 1960 and was 
received into Phi Beta Kappa honor society at that time.
    While Chancellor Orbach's nomination is a gain for the 
Department of Energy and the energy science community, it is a 
loss for the University of California and for both of our 
States. I am looking forward to his confirmation and working 
with him in the future on many issues of importance to my home 
State, California, the Department of Energy, and the Office of 
Science.
    May I welcome you, Dr. Orbach, and if you would like to 
make a statement, the committee would be very happy to receive 
it.

 TESTIMONY OF DR. RAYMOND L. ORBACH, NOMINEE TO BE DIRECTOR OF 
            OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Dr. Orbach. Thank you, Senator, for those wonderful 
comments and for coming here this morning. Your introduction of 
me is very meaningful and I am greatly appreciative.
    I have been honored to be nominated for this position by 
the President and the Secretary of Energy. My wife is back in 
California doing a number of chores and I am, my family is 
represented here by my youngest son, Randy Orbach.
    Senator Feinstein. Welcome, Randy.
    Dr. Orbach. Randy is chief trust officer for Commercial 
Capital Bank, the largest independent bank in Orange County. 
I'm very pleased that he was able to come today.
    I'm looking forward to this position if I'm confirmed. It 
will be an opportunity to champion the cause of science within 
the Department of Energy but also on the national scale. It is 
an honor to be considered for the Office of Science, which has 
10 national laboratories which report to the Office plus a 
major responsibility for scientific research in energy 
sciences, biological and environmental sciences, and 
computational science.
    The scientific community today is charged with 
responsibilities as serious as any in our Nation's history and 
it is imperative that both our educational and research 
programs in our country be at the highest level and that we 
work very hard to see to it that all children have the 
opportunity to excel in their studies and hopefully to 
encourage them to go into careers in science and engineering.
    I have been very generously supported by the U.S. 
Government in my own scientific career and am deeply 
appreciative of that and am looking forward to the opportunity 
to return some of the trust and the support the government has 
given me in this position.
    Let me again thank you, Senator, very much for coming here 
this morning and introducing me, and I look forward to working 
with you.
    [The prepared statement of Dr. Orbach follows:]
Prepared Statement of Dr. Raymond L. Orbach, Nominee To Be Director of 
                Office of Science, Department of Energy
    Mr. Chairman and Members of the Committee: It is a privilege to 
appear before you today as the President's nominee for Director of the 
Office of Science at the Department of Energy, to have the opportunity 
to talk with you, and to answer any questions you may ask. I am honored 
by the President's and Secretary Abraham's confidence in me and I would 
like to thank them both for their support.
    Because of pressing business in California, my wife of 45 years, 
Eva Orbach, is unable to be here. She has been my partner in all of my 
professional life, including raising three wonderful children who have 
given us seven perfect grandchildren. I know how much she would have 
liked to attend this hearing. I am pleased to introduce my youngest 
son, Randy Orbach, who is representing our family. He lives in Orange 
County, California, and works as Chief Trust Officer for Commercial 
Capital Bank, the largest private bank in Orange County.
    The Director of the Office of Science serves as the Science Advisor 
to the Secretary of Energy, and is the Vice Chair of the Department's 
Research and Development Council. The Office of Science is the steward 
and principal funding agency of the Nation's research programs in high-
energy physics, nuclear physics, and fusion energy sciences. It manages 
important programs of fundamental research in basic energy sciences, 
biological and environmental sciences, and computational science, all 
of which also support the missions of the Department. An example of the 
extraordinary value of these efforts are the insights being gleaned 
from the Human Genome Program, an effort initiated by the Office of 
Science.
    The Office is responsible for the overall health, well being, and 
management of ten laboratories, DOE-owned and contractor operated, 
recognized internationally for their scientific excellence, for 
constructing and operating large scientific user facilities, and for 
providing leadership on a world scale for scientific initiatives. The 
strength of the United States' economy and defense is dependent in 
large part on the successful stewardship of science at the Office of 
Science and her sister agencies.
    At this time of crisis, the strength of the scientific community, 
both in teaching and research, forms the underpinning of our 
technological response to terrorism, to homeland security, and to the 
economic opportunities available to our citizenry. The mission of the 
Office of Science is to provide our President and country with the best 
science with which to implement our national energy policy. These are 
awesome responsibilities, and if confirmed, I shall do my best to 
provide the necessary leadership.
    I have been an active scientist for over 43 years. I have been the 
recipient of generous federal support, both in terms of graduate and 
postdoctoral fellowships, and research grants and contracts from the 
National Science Foundation and the Office of Naval Research. I have 
served for two decades in educational leadership positions, while 
continuing my teaching and research activities. During the past ten 
years as Chancellor of the University of California, Riverside, I have 
taught the introductory course in Freshman physics every year. I have 
been a champion of access to higher education for all children. I have 
personally visited elementary, middle, and high schools all over 
California and in Northern New Mexico, providing the reasons why, the 
path to, and the support mechanisms for attending college. I have seen 
my own campus nearly double in enrollment, becoming the most ethnically 
diverse Research I university in the United States. My mission has been 
to prove that a truly diverse student body can succeed at the highest 
level of academic achievement.
    If confirmed as Director of the Office of Science, I commit myself 
to work with you and your colleagues, listening to your advice and 
direction. I intend to assist with the development of not only the 
scientific research strength of this nation, but also with the 
opportunity for everyone in our country to participate in educational 
development at the highest intellectual level.
    Mr. Chairman, I again thank you for the privilege of appearing 
before you, and your distinguished colleagues. I shall be pleased to 
respond to questions.

    Senator Feinstein. Thank you very much, Dr. Orbach, and I 
look forward to working with you.
    As you can probably tell by the number of committee members 
that are here, your appointment has absolutely no controversy 
attached to it. If everybody was here, you might think uh-huh, 
I might be in trouble. But as you can see, you are very well 
thought of.
    I would like to just ask two quick questions for the record 
if I might. The Office of Science is responsible for conducting 
the basic research that underpins the Department of Energy 
supply technology programs. Many of these programs such as the 
environmental cleanup program, climate change research, 
advanced computing, compete for a share of the Department's 
limited research budget for basic science. So my question is, 
how would you establish priorities among the Department's many 
competing claims?
    Dr. Orbach. I would be an advocate for science in the 
Department of Energy, recognizing the limitations on budget 
that the Department faces. I would work with the community, 
with Congress, to establish priorities that are important for 
the country, and then to champion those priorities within the 
Department and the Congress and with the public.
    Senator Feinstein. Thank you very much. Are there 
particular areas of basic research such as the human genome, 
material sciences, nano-science, particle physics that you 
would single out as needing a greater share of the Department's 
research budget?
    Dr. Orbach. All four of those are major programs within the 
Department and I would support all of them plus the other 
programs that have been established and try to bring as 
sensible a balance as I could for support across the scientific 
spectrum.
    Senator Feinstein. Thank you. One last question. Have 
security concerns reduced the ties between the three main 
nuclear weapons laboratories, Lawrence, Las Alamos and Sandia, 
and the rest of the national laboratories?
    Dr. Orbach. I have not been in the position so I'm not sure 
technically what the relationships are, but my impression is 
that the relationships have continued. The Office of Science 
supports research at the three laboratories that you mentioned, 
and I hope that that relationship will continue. It's very 
important that the basic sciences in the NNSA laboratories be 
at the highest possible level for the purposes that those 
laboratories are functioning.
    Senator Feinstein. I would certainly agree with that. And 
you know, I feel very strongly that the security has to be part 
of this. I recall talking with Dr. Atkinson when he came into 
my office about this whole issue of security at the labs, and 
the culture of the lab which of course is an academic culture, 
and whether the two can really be bridged effectively. And I 
have a lot of concern that the academic culture is put in 
perspective of the labs, because security has to be a major 
part of what you look at, I think, and I will be very candid 
with you, I think one of the problems we had was when a lot of 
the security was relaxed throughout the 1990's and by the end 
of the 1990's we found that there were problems because of 
that, so I think that is going to be a very interesting area 
for you to deal with because the academic culture, so to speak, 
militates against the security. And yet, the type of work that 
is done, the importance to our Nation of that work militates 
toward a greater security, so there is a kind of conflict that 
I observed over time is built into the situation.
    Dr. Orbach. That tension is there, has always been there, 
and security is the most important issue, but the ability to 
continue the kind of scientific exchanges and relationships 
that will give strength to the weapons program is also 
essential. So it has to be managed, but security comes first.
    Senator Feinstein. I am very pleased to hear you say that 
because I strongly agree and I think the committee would 
strongly agree with that as well. It is not so easy because of 
what you have to do to really maintain that security over a 
substantial period of time. Not only the badges which at one 
point were removed, but also the willingness of people that 
work there to cooperate with security.
    Dr. Orbach. I believe the people I have met are fully aware 
of that responsibility. It is nevertheless an issue that they 
must deal with in terms of being available to the scientific 
community, but I think they understand, and it's very important 
that that be front and center.
    Senator Feinstein. That is correct. In any event, thank you 
so much for being here. I am not going to pursue any other 
questions. You are superbly qualified and I really look forward 
to working with you, and this hearing is adjourned.
    Dr. Orbach. Thank you, Senator.
    [Whereupon, at 9:22 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

               Responses to Questions From Senator Craig
                             nanotechnology
    Question. I know you are familiar with DOE's work in nanoscience 
and technology. When you visited with my office, I appreciated your 
awareness of the nanotechnology research going on at Boise State 
University. Boise State is working jointly with Micron on exciting new 
technology applications.
    What do you think is the appropriate role of both universities and 
industry partners in the DOE Science program?
    Answer. Much of nanoscale science is critical to the principal 
missions of DOE in science, energy, defense, and environment. For 
example, nanoscale synthesis and assembly methods will result in 
significant improvements in solar energy conversion; more energy-
efficient lighting; selective catalysts; stronger, lighter materials 
that will improve efficiency in transportation; highly selective 
separations membranes; and better sensors and controls to increase 
efficiency in manufacturing. For these reasons, DOE has been involved 
in nanoscale scale science since the early 1980's.
    We have found that there is much current interest in nanoscale 
problems related to energy. In FY 2001, a request for applications 
resulted in 745 preapplications and 417 formal proposals from 
universities; a total of $16.1 million was awarded to 76 of these 
applications. The DOE laboratories, which were restricted to 4 
proposals per laboratory, submitted 46 proposals; a total of $10.4 
million was provided to 12 of these proposals. As you can see, 
Universities thus play a major role in the DOE nanoscale science 
activities, having won about 60% of the funds in the FY 2001 
competition.
    In addition, to the basic research in energy related grand 
challenges, the Basic Energy Sciences (BES) program supports Nanoscale 
Science Research Centers (NSRCs). The NSRCs are research facilities for 
synthesis, processing, and fabrication of nanoscale materials. They 
will be collocated with existing user facilities and other specialized 
facilities at DOE labs, which will provide characterization and 
analytical capabilities. The NSRCs will be operated in the same way as 
user facilities, but will provide specialized equipment and an 
interdisciplinary support staff. Access to the centers will be based on 
peer review. The NSRCs will make it possible to do research requiring 
specialists in several disciplines and in the use of specialized 
synthesis, processing, and characterization equipment to be done in one 
place. Again, universities play a major role in these centers. 
Principal investigators from universities across the Nation are 
participating in open workshops to define the NSRC specifications, 
including instrumentation and research focus areas. In addition, 
university scientists are expected to make up at least half of the 
users of these centers.
    Question. At the Idaho National Engineering and Environmental 
Laboratory, a consortium of universities through the Intermountain 
West--including the University of Alaska--are partners in the 
management of the INEEL.
    As someone who comes to DOE from a university, what do you think 
could be done to strengthen the role of universities in DOE's Science 
program?
    Answer. The role of university research in the DOE Science program 
has been, and continues to be, a key part of the Science portfolio. 
Indeed, although it is not well known, the size of the university 
research program is very nearly equal to that of the DOE laboratory 
research program after laboratory funding for operation of large 
science use facilities is set aside. This is because it is important to 
incorporate the very best talent from all of the Nation's research 
institutions in the DOE Science programs. University investigators are 
part of all of our research programs, they participate in the selection 
and definition of the large major scientific user facilities that are 
operated at our DOE laboratories, and work side by side with laboratory 
scientists at these facilities. Our major new initiatives in nanoscale 
science and technology, climate change, genomes to life, and high-
performance computing all involve partnerships among university and 
national laboratory investigators. These partnerships build on the 
strengths of the participating researchers and their institutions to 
create programs of outstanding national and international scope.
                             science in doe
    Question. One of the roles you will fill at DOE is that of the 
Secretary of Energy's Science Advisor, I am very interested in the 
investment in research which has the potential to allow the job of 
DOE's massive clean-up program to be done cheaper and quicker.
    Do you believe that DOE must invest significantly in environmental 
research to find better and more cost effective ways to clean up DOE 
sites.
    Answer. Cleanup is one of the most technically challenging 
environmental issues we have ever faced--many of the problems we face 
have never been dealt with before. Estimates for cleanup costs are 
huge, and there is no certainty of what the ultimate costs will be. 
This tremendous cost uncertainty is due, in part, to a lack of 
understanding of the technical issues for understanding risk and 
likelihood of exposure, as well as a dearth of modern technologies. 
Basic research can help both determine and characterize the extent of 
the cleanup program as well as develop capabilities, e.g., 
bioremediation and natural attenuation, to remediate the waste.
    Question. If DOE must invest in this research, should this work be 
part of the Office of Environmental Management or part of the Office of 
Science.
    Answer. This work should be done in partnership between the Office 
of Environmental Management (EM) and the Office of Science (SC), as it 
has since its inception.
              Responses to Questions From Senator Cantwell
    Question 1. The National Institutes of Health have, over the past 
five years, been aggressively expanding health sciences programs, and I 
believe we all support that sustained growth strategy. The Department 
of Energy also has a biology mission and has been on a relatively flat 
growth profile over the same period. Would you clarify your view of the 
roles of NIH and DOE around biology and each agency's mission?
    Answer. The National Institutes of Health (NIH) biology role 
focuses on human health from diagnosis to treatment.
    DOE's biology role focuses on DOE's missions in clean energy, 
climate change mitigation, bioremediation, and biothreat reduction. DOE 
also has a role in addressing the health effects of energy production 
and use, including the effects of low dose and low dose rate of 
radiation using the modern tools of genomics science and structural 
biology.
    DOE also pursues constructive collaborations with the NIH and 
builds and operates the scientific user facilities, such as synchrotron 
light sources, necessary for much NIH funded research. DOE's strengths 
in the physical sciences, engineering, mathematics, and computation 
will add to the analysis of health issues, particularly in partnership 
with the NIH, the National Science Foundation (NSF), and the 
Environment Protection Agency (EPA).
    Question 2. The DOE Biology Environmental Research budget contains 
a Genomes to Life Program, which is taking advantage of the information 
gained from the human genome and using it in several applications 
including energy, environment, and national security. What, in your 
view, are the most opportune applications for Genomes to Life, and how 
do you plan to help this program achieve its vast potential?
    Answer. The most opportune application of Genomes to Life (GTL) is 
in development of clean energy sources. By investing in the four goals 
of the basic genomic research of the GTL program, e.g., understanding 
the molecular machinery of life, the cellular regulatory networks, the 
functional diversity within microbial and plant communities and by 
building the appropriate computational infrastructure we can provide 
the knowledge base necessary to develop the technologies to produce 
abundant clean fuels, such as hydrogen. Energy biomass is another 
potential high impact application. Another application is in enhancing 
the biosphere to absorb greater amounts of carbon dioxide from the 
atmosphere. Other favorable applications are in bioremediation of DOE 
sites' stubborn mixed wastes as well as in the national effort to 
detect and defeat bioterrorism.
    I plan to help this program achieve its vast potential by 
leveraging the existing and planned user facilities to realize the 
goals of the GTL.
    Question 3. A 900 MegaHertz spectrometer, the most powerful nuclear 
magnetic resonance (NMR) tool in the world, is due to arrive at Pacific 
Northwest National Laboratory next month. Can you describe the 
significance of having the largest NMR wide-bore spectrometer at a DOE 
Laboratory?
    Answer. The 900 MegaHertz NMR is the last of over 100 instruments 
to be delivered to the Environmental Molecular Sciences Laboratory 
(EMSL). The EMSL is one of many DOE user facilities that serve to 
provide the scientific community with unique scientific instrumentation 
for cutting edge research. The significance of the 900 MHz NMR to DOE 
is that it will allow academic and university scientists funded under 
DOE's Genomes to Life and other programs to resolve for the first time 
biological structures important to DOE missions. The 900 MHz wide-bore 
NMR represents a major technical breakthrough in NMR instrumentation. 
The 900 MHz NMR will be used to image and determine the structure of 
larger and more complex molecular structures than can be done with 
current systems. For example, the higher magnetic field will provide 
sharper images and allow scientists to understand how toxic metals 
interact with complex cellular machinery and how DNA is damaged and 
repaired in response to environmental and energy-related toxic 
substances.
              Responses to Questions From Senator Landrieu
         experimental program to stimulate competitive research
    Higher education in the State of California in general, and the 
University of California System in particular, has been very fortunate 
to have a long-standing relationship with the Energy Department and its 
predecessor agencies. This has permitted the development of a very 
vigorous energy research capability in the state which, of course, 
enables research institutions in their efforts to attract researchers 
and additional support for scientific research, particularly in energy-
related fields, such as the basic energy sciences, biological and 
environmental research and high-energy physics programs you will 
oversee as the Director of the Office of Science.
    Question. Are you aware of the Experimental Program to stimulate 
Competitive Research (EPSCoR) that is designed to assist states to 
build their research capacity?
    Answer. Yes I am aware of the DOE/EPSCoR program. The program was 
started in FY 1991 with an annual budget of $4,000,000. The FY 2002 
request is $7,679,000.
    Question. The Energy Department has a modest but effective EPSCoR 
program that is managed out of the Basic Energy Sciences office. How do 
you intend to use this program to help broaden DOE's energy research 
base in states such as Louisiana, North Dakota, South Dakota, Oklahoma, 
Idaho, Alabama, Montana, Nebraska and Alaska?
    Answer. The DOE/EPSCoR program sponsors two types of research 
grants: 1) implementation grants and 2) laboratory-state partnership 
grants. Respectively, these grants: 1) allow states to form 
``clusters'' of research to build significant state-wide core 
competencies and 2) allow researchers in EPSCoR states to participate 
individually in the EPSCoR program. Requests for Application (RFA) for 
these grants are published in the Federal Register whenever funds are 
available for the program. All grant applications are peer reviewed 
with respect to the scientific quality, programmatic interests and 
priority and relevance to the EPSCoR objective. All the states 
mentioned above are DOE/EPSCoR eligible states and are invited to send 
applications to the program for possible funding.
    Question. Please describe the Department's Experimental Program to 
Stimulate Competitive Research. What states currently receive EPSCoR 
grants and what are their research topics?
    Answer. The Department of Energy's EPSCoR is a federal-state 
partnership designed to help the nation and the states better meet 
today and tomorrow's energy needs. States eligible for DOE/EPSCoR 
support include: Alabama, Alaska, Arkansas, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Mexico, North Dakota, Oklahoma, South Carolina, South Dakota, Vermont, 
West Virginia, Wyoming, and the Commonwealth of Puerto Rico. The 
principal objective of the DOE/EPSCoR program is to enhance the 
abilities of the designated states to conduct nationally competitive 
energy-related research and to develop science and engineering manpower 
to meet current and future needs in energy related areas. This program 
addresses basic research needs across all of the Department of Energy's 
research interests. The DOE/EPSCoR program is located in the Department 
of Energy's Basic Energy Sciences program.
    To maximize the effectiveness of the program, the development of 
science and engineering manpower component is closely coupled with the 
basic research part of the program. The program places particular 
emphasis and priority on collaboration by the state faculty with 
scientists from the DOE national laboratories where unique scientific 
and technical capabilities are present. This program strives to engage 
other DOE program offices within the Department by encouraging 
participation by program managers from other offices in the review 
process and cofunding of the successful proposals.
    Following is a list of states currently receiving EPSCoR grants and 
their respective research topics:

------------------------------------------------------------------------
            States                           Research Topic
------------------------------------------------------------------------
Alabama.......................  Material Sciences, Computer Science,
                                 Fusion Energy Sciences
Arkansas......................  Materials Science, High Energy Physics,
                                 Fossil Energy
Idaho.........................  Biological Sciences, Environmental
                                 Sciences
Kansas........................  High Energy Physics, Materials Science,
                                 Renewable Energy
Kentucky......................  High Energy, Nuclear Physics, Materials
                                 Science
Louisiana.....................  Materials Sciences
Mississippi...................  Renewable Energy, Materials Science,
                                 Computer Sciences
Montana.......................  Materials Science, Fusion Energy
                                 Sciences, Wind Energy
Nebraska......................  Environmental Sciences, Materials
                                 Science
Nevada........................  Defense Programs, Geosciences, Chemical
                                 Sciences, Materials Science, Renewable
                                 Energy
Oklahoma......................  Materials Science, High Energy Physics,
                                 Fossil Energy
Puerto Rico...................  High Energy Physics, Materials Science
South Carolina................  High Energy Physics, Chemical Sciences,
                                 Materials Sciences
Vermont.......................  Computer Sciences, Materials Science,
                                 Biological sciences
West Virginia.................  Fossil Energy, Materials Science,
                                 Chemical Sciences, Fusion Energy
                                 Sciences
Wyoming.......................  Materials Science
------------------------------------------------------------------------

    Question. What is the Department's FY 2003 request for the EPSCoR 
program?
    Answer. The Department's FY 2003 Request is $7,655,000.
    Question. What are some of the accomplishments of the Department's 
EPSCoR program?
    Answer. The EPSCoR program funds basic research in support of all 
programmatic needs of the department. The accomplishments are grouped 
according to the relevant DOE programmatic office.
    Basic Energy Sciences: Direct evidence was demonstrated for the 
importance of magnetostatic interactions in characterizing novel 
nanostructured materials. Inclusion of such interactions in the study 
of new and novel materials should lead to better characterization of 
these materials. The Interfacial Force Microscope has been used to 
obtain the elastic modulus for several polymer and polymer matrix 
composite systems with nanometer spatial resolution. These studies are 
important for developing novel lightweight polymer matrix composites. 
Kirkwood-Buff theory has been successfully applied for the 
interpretation of thermodynamic solvation effects in terms of the 
distribution of water and salts around benzene. This successful 
demonstration holds promise for application to a wide range of research 
studies using molecular dynamics simulations. Purification of single-
walled, shortened, carbon nanotubes by capillary electrophoresis was 
demonstrated by using UV/visible and real-time Raman spectroscopy. This 
should pave the way for isolating different sizes of carbon nanotubes.
    Biological and Environmental Research: Significant progress is 
being made in crystallizing and solving the structure of a Q50K mutant 
for use in developing a novel methodology for pharmaceutical design 
targeting DNA expression.
    Environmental Management: Enzyme-activity dependent probes and 
inhibitors were used to characterize bacterial isolates from the tri-
chloro-ethylene (TCE) contaminated site at INEEL. These probes will be 
very useful in environmental management issues at the DOE sites. 
Developed unique magnetorestriction based sensor technology for 
measuring temperature, elasticity, pressure, pH, liquid viscosity, and 
liquid density. This technology will be very useful for application to 
environmental cleanup and environmental management issues.
    Renewable Energy and Efficiency: A first commercial wind power 
facility, a 22 megawatt wind turbine utility, is being established on 
the Blackfeet nation's land. This facility is based on the research 
supported by EPSCoR. A new technology ``Resin Transfer Molding'' is 
developed and its application to manufacture of wind turbine blades was 
demonstrated.
    Defense Programs: Optical sensors based on Faraday rotation were 
developed for monitoring electric and magnetic fields. These sensors 
are being developed for use in improved operation of the electron beam 
accelerators and imaging systems that are used in DOE stockpile 
stewardship program.
    Question. What states currently hold DOE EPSCoR implementation 
awards?
    Answer. The states of Alabama, Kansas, Kentucky, Mississippi, 
Montana, Nebraska, Nevada, Puerto Rico, Vermont, and West Virginia 
currently hold DOE EPSCoR implementation awards.
    Question. What are The research topics is these states?
    Answer. Following are the research topics by states: Alabama 
(Materials Science), Kansas (High Energy Physics/Materials Science), 
Kentucky (Nuclear Physics/Materials Science), Mississippi (Renewable 
Energy/Biomass), Montana (Materials Science), Nebraska (Environmental 
Sciences), Nevada (Defense Programs/Radiography), Puerto Rico 
(Materials Science), Vermont (Biological Sciences), West Virginia 
(Fossil Energy).
          national institutes for global environmental change
    Question. Are you familiar with the National Institutes for Global 
Climate Change (NIGEC) that is headquartered at the University of 
California at Davis?
    Answer. Yes, I am familiar with NIGEC and the six regional NIGEC 
Centers.
    Question. Please describe the program and how it can contribute to 
efforts to better understand the science of global climate change.
    Answer. NIGEC was established to contribute to the knowledge base 
of climate change research. Its focus is the reduction of key 
scientific uncertainties inherent in the projections of future climate 
states, and the perturbations to the climate system attributed to human 
activities. NIGEC's mission is to support DOE's climate change research 
objectives as well as those of the U.S. Global Change: Research 
Program. Present focus areas of NIGEC are the influence of terrestrial 
ecosystems in the U.S. on the carbon cycle, and the effects of 
increasing carbon dioxide and climatic change on ecosystems important 
to the Nation. NIGEC carves out its mission by supporting university 
researchers from the National Office at the University of California, 
Davis, and the six Regional Centers at Tulane University, the 
University of Nebraska, Indiana University, Harvard University, the 
University of Alabama, and the University of California, Davis.
    Question. What are the Department's plans for this program in FY 
2003?
    Answer. Most of The NIGEC university grants are on a 3-year cycle, 
so about two thirds of the individual projects will continue in FY 
2003, For the projects that will turn over in FY 2003, the Department 
expects NIGEC to initiate new projects that are similar in scope, but 
with an increased emphasis on effects of potential climate change on 
ecosystems important to the Nation.
    Question. Please describe some of the accomplishments of the NIGEC 
program. What are some of the activities of the South Central Center at 
Tulane University?
    Answer. NIGEC contributed science used in the recent National 
Assessment of Potential Consequences of Climate Variability and Change 
on the U.S. The primary result of the Assessment was identification of 
key uncertainties that need to be resolved by additional research--
NIGEC has also made, and continues to make, critical contributions to 
our understanding of the carbon sink strength of forests in several 
regions of the country. This is important to predicting future 
atmospheric carbon dioxide levels, a main forcing agent in global 
warming.
    The South Central Center is carrying out the critical task of 
testing models used To predict effects of climate change on natural 
resources and how the land surface of The U.S. affects climate 
variability and change. A notable activity of the South Central Center 
is its recent release of a Request for Proposals to begin studies of 
encroachment of woody vegetation into grasslands and pastures in the 
south central U.S. This is a topic of great importance to U.S. 
agriculture, which may be significantly affected by increasing 
atmospheric carbon dioxide and climatic change.

                                    

      

</pre></body></html>
